<html>
<title> - NOMINATION OF JEFFREY MICHAEL PRIETO, OF CALIFORNIA, TO BE GENERAL COUNSEL OF THE DEPARTMENT OF AGRICULTURE</title>
<body><pre>[Senate Hearing 114-151]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 114-151

                             NOMINATION OF
                 JEFFREY MICHAEL PRIETO, OF CALIFORNIA,
                        TO BE GENERAL COUNSEL OF
                     THE DEPARTMENT OF AGRICULTURE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION


                               __________

                              MAY 21, 2015

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.fdsys.gov/
        
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-179 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
        
        
        
        
        
        
        
        
        


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
DAVID PERDUE, Georgia                MICHAEL BENNET, Colorado
JONI ERNST, Iowa                     KIRSTEN GILLIBRAND, New York
THOM TILLIS, North Carolina          JOE DONNELLY, Indiana
BEN SASSE, Nebraska                  HEIDI HEITKAMP, North Dakota
CHARLES GRASSLEY, Iowa               ROBERT P. CASEY, Jr., Pennsylvania
JOHN THUNE, South Dakota

               Joel T. Leftwich, Majority Staff Director
                Anne C. Hazlett, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
             Christopher J. Adamo, Minority Staff Director
              Jonathan J. Cordone, Minority Chief Counsel

                                  (ii)















  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination of Jeffrey Michael Prieto, of California, to be 
  General Counsel of the Department of Agriculture...............     1

                              ----------                              

                         Thursday, May 21, 2015
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     2

                                Witness

Prieto, Jeffery Michael, of California, to be General Counsel of 
  the Department of Agriculture..................................     2
                              ----------                              

                                APPENDIX

Prepared Statements:
    Stabenow, Hon. Debbie........................................    14
    Prieto, Jeffery Michael......................................    15
Document(s) Submitted for the Record:
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Jeffrey Michael Prieto.....................    18
Question and Answer:
Prieto, Jeffery Michael:
    Written response to questions from Hon. Pat Roberts..........    36
    Written response to questions from Hon. Debbie Stabenow......    36
    Written response to questions from Hon. Michael Bennet.......    36
 
                             NOMINATION OF
                 JEFFREY MICHAEL PRIETO, OF CALIFORNIA,
                        TO BE GENERAL COUNSEL OF
                     THE DEPARTMENT OF AGRICULTURE

                              ----------                              


                         Thursday, May 21, 2015

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 9:58 a.m., in 
room 328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the committee, presiding.
    Present or submitting a statement: Senators Roberts, 
Boozman, Hoeven, Perdue, Ernst, Tillis, Sasse, Grassley, Thune, 
Stabenow, Klobuchar, Bennet, Gillibrand, Donnelly, and Casey.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. The vote is at 10:00, I understand now, 
and guess what, we could proceed to see just how far we can 
move along.
    Mr. Prieto, would you please come before the committee.
    [Pause.]
    Chairman Roberts. The purpose of this hearing is Mr. 
Jeffrey Prieto's nomination to serve in the position of General 
Counsel for the United States Department of Agriculture. We 
welcome you, sir.
    The Office of the General Counsel at the USDA was 
established in 1910. It is an independent agency providing 
centralized legal advice and services to the Department in 
support of all programs and activities. The legal services 
range widely, from providing counsel to USDA officials, to 
providing technical assistance to Congress during farm bills, 
to conducting litigation. The office also provides litigation 
support services to the Department of Justice, as needed.
    The General Counsel is responsible for providing advice and 
counsel directly to the Secretary and the Deputy
    Secretary, in addition, overseeing the Washington, DC-based 
office. The position also supervises 12 field offices within 
OGC as well as the Office of Ethics.
    Our nominee, Mr. Prieto, currently serves as Acting General 
Counsel at the Department. He has worked at the Department 
since June of 2014, when he was hired to be the Principal 
Deputy. Prior to his service at the Department, he was an 
attorney at the Department of Justice for 15 years and also 
worked as an attorney advisor at the Environmental Protection 
Agency. He is a graduate of the UCLA School of Law, holds a 
Master's degree of Public Affairs from the Woodrow Wilson 
School of Public and International Affairs at Princeton 
University, and is from California.
    Mr. Prieto, I understand that your wife, Sheryl, son 
Daniel, and mother, Lucy, as well as other friends and family 
join you today. If I could ask them to stand, I would do that 
now. We welcome you to the committee.
    [Applause.]
    Chairman Roberts. I look forward to hearing your testimony 
today and asking you some questions in regard to the role you 
would serve at the Department, if confirmed.
    I first turn to my distinguished Ranking Member for any 
remarks that she may have.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you, Mr. Chairman.
    In the interest of time, I will put my opening statement 
into the record, but I just want to welcome Mr. Prieto and your 
family. I know they are very, very proud of you. You have been 
serving us well in an acting position.
    This is obviously an incredibly important position of 
General Counsel. Our farmers and ranchers and families and 
rural communities count on you to help guide us as we implement 
the farm bill and other policies that create tools for our 
growers and the resources for our communities.
    Mr. Chairman, thank you for bringing the nomination 
forward. I hope we can swiftly confirm Mr. Prieto as General 
Counsel, and I will put the rest of my comments into the 
record.
    [The prepared statement of Hon. Debbie Stabenow can be 
found on page 14 in the appendix.]
    Chairman Roberts. I thank the Senator.
    There are two questions that I need to ask you, sir, under 
oath, before your testimony, if you could please stand and 
raise your right hand.
    Do you swear that the testimony you are about to present is 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Mr. Prieto. I do.
    Chairman Roberts. Second, do you agree that, if confirmed, 
you will appear before any duly constituted committee of the 
Congress, if asked to appear?
    Mr. Prieto. I do and will.
    Chairman Roberts. Thank you, sir.
    Mr. Prieto. Thank you.
    Chairman Roberts. Please be seated.
    You are recognized for your testimony, sir.

 TESTIMONY OF JEFFREY MICHAEL PRIETO, OF CALIFORNIA, NOMINATED 
     TO BE GENERAL COUNSEL, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Prieto. Good morning, and greetings, Mr. Chairman, 
Ranking Member Stabenow, and other distinguished members of 
Congress and the committee. I thank you all for your 
willingness to hold this hearing.
    It is a great honor to be before you as President Obama's 
nominee as the General Counsel. I am also grateful to not only 
the President, but to Secretary Vilsack for this honor, as 
well, and I look forward to continuing to serve the American 
public if I am so privileged of being confirmed.
    I also thank you, Mr. Chairman, for recognizing my family, 
because it is an honor to have them here. I just want to 
publicly take a moment to thank my wife. We have had a long 
journey to this particular place, and without her love, 
support, I would not be here.
    I also want to thank my mother, my sister, and our Rector, 
as well, for their prayers, their support. My oldest son is 
here. My youngest son started his summer job today and I told 
him he cannot miss working----
    [Laughter.]
    Mr. Prieto. --so I know that he is here in spirit. But, I 
am so grateful to all of them and all of the members and 
friends and family that are here, and also to my community. 
Because of them, I have this opportunity, and I intend to 
continue to pay back that particular debt.
    But, I am also a product of my family's history. My family 
has been in this country for two generations. I think today of 
three uncles who were killed in World War II, my cousins who 
have served, including one who received the Distinguished 
Flying Cross during the Vietnam conflict, another cousin who 
has served in Special Forces during the Afghan situation, and 
they are my inspiration. I think about them today, both those 
that have passed, those that are still here, and they have 
inspired me.
    But, I also understand that inspiration has to be coupled 
with hard work. I learned how to work hard from my grandfather. 
My grandfather worked in a citrus packing house in Santa Paula, 
California, for over 50 years, and he loved that job. He woke 
up every morning, went to work. The bell would come, he would 
come home for lunch, and he would go back. I worked there a 
summer and I know how hard he worked. But, that is where I 
learned how to work hard, and it was because of him and his 
sacrifices and my grandmother's that we had the opportunities. 
They supported us in so many different ways, at times 
financially, our family in Mexico, and it was because of them, 
again, that I am here.
    But, not only inspiration and hard work, but there has to 
be a purpose, and that purpose has been public service. I am so 
glad that my mother is here today, because I learned what it is 
to serve from my mother. My mother was our primary earner. She 
worked a variety of jobs, and when we were growing up worked in 
a split schedule so that she could be home when we left and she 
was home when we got back, and then would go back to work. It 
is, again, because of that sacrifice that, again, I understand 
that it is not just enough to be inspired, it is not just 
enough to work hard, but that you have to have a purpose.
    I believe that coming together at this particular time, 
this is my purpose, and my purpose has been to serve the 
American public. If confirmed, serving as a General Counsel 
would be the apex of my career. I am very proud of my service 
as a government attorney and I think that that uniquely 
prepares me, because I do understand the complexities of 
working with federal legal agencies, the complexities of 
issues.
    I have been privileged to work on some of the most 
important cases during my time at the Department of Justice and 
I continue to bring that insight, that work ethic, that 
understanding in serving in this particular position.
    But, in terms of USDA, I also look forward to serving 
America's farmers, ranchers, rural communities, because they 
are not only essential contributors to the nation's economy, 
they are amongst the most challenged segments of American 
society. Both of my parents grew up in Santa Paula, California. 
It is the citrus capital of the world, and I know there may be 
states that may disagree with that. But, because of that 
product, I understand the importance of agriculture in people's 
lives. I understand what we gained as a family because of my 
grandfather's work.
    I have been privileged in my life. I have been privileged 
to work on the issues that I have worked on and I look forward 
to continuing to do so. I also look forward to working in USDA 
because we have some of the finest attorneys, some of the 
finest professional staff that I know not only serve the 
Department, the American public, but work so closely with you 
all, and I am committed to continue to do so.
    Finally, if you would honor me by recommending me, and 
should the Senate confirm me, I will do everything in my power 
to execute the duties of the General Counsel. I intend to 
execute my duties with the highest level of integrity, skill, 
and professionalism to earn your trust, to earn your respect, 
and I am committed to working with the leadership of USDA, with 
the Congress, to further the best interests of all Americans.
    So, I thank you, Mr. Chairman, Ranking Member, for holding 
this hearing to consider my candidacy. I am grateful for your 
time and I am glad to answer any questions that you might have.
    [The prepared statement of Mr. Prieto can be found on page 
15 in the appendix.]
    Chairman Roberts. Well, Mr. Prieto, we thank you for your 
humble and most eloquent statement. Thank you, sir.
    As members know--Senator Bennet, would you like to be 
recognized to cast your vote aye on behalf of the Grain 
Standards Act?
    Senator Bennet. Yes, Mr. Chairman.
    Chairman Roberts. Senator Klobuchar, as well?
    Senator Klobuchar. Thank you.
    Chairman Roberts. We appreciate it.
    Senator Thune. Mr. Chairman? Mr. Chairman, way down here at 
the end?
    [Laughter.]
    Chairman Roberts. Yes.
    Senator Thune. Could I also be recorded as yes on the Grain 
Standards----
    Chairman Roberts. I would be very pleased to acknowledge 
your vote.
    Senator Thune. Mr. Chairman, thanks.
    Chairman Roberts. We have some questions. The staff will 
let us know when the vote starts, and I want to thank members 
for coming and giving us a quorum.
    Mr. Prieto, farmers and ranchers are affected on a daily 
basis by decisions made at agencies all across our federal 
government, some of them quite intrusive. They are impacted by 
rules such as the waters of the U.S. rule at EPA and 
regulations on transporting farm goods and commodities at the 
Department of Transportation. You know that. What appropriate 
role or supporting role, if any, do you envision for the Office 
of General Counsel during the interagency process and 
discussions as laws affecting our agriculture producers are 
implemented, sir?
    Mr. Prieto. Mr. Chairman, thank you very much for that 
question. I see a very robust role, and, obviously, depending 
on the circumstance. Some of the examples you have provided, 
USDA is not the lead, and in those particular instances, we 
serve in a counseling role. That counseling role ensures that 
the interests of the agricultural community are embodied, that 
they are raised. We work very, very hard to ensure in working 
with other federal agencies--and this is, again, an area that I 
think particular insight--understanding the need for 
collaboration. I am committed and will continue to ensure that 
the interests of the agricultural community are raised and 
considered by other federal agencies as they move forward on 
those rules and responsibilities that they have primary 
responsibility over.
    Chairman Roberts. Thank you, sir.
    I want to draw attention to the committee and to everybody 
present, and to you, Mr. Prieto, there has been recent media 
attention on federal agencies like the EPA improperly promoting 
its regulatory actions with regards to waters of the U.S. A 
recent news article raises questions about EPA's role and 
actions employed in order to garner public support for the 
proposed rule and reports that critics believe the EPA 
inappropriately influenced the campaign, which is prohibited 
for a federal agency according to the Anti-Lobbying Act.
    Now, given your legal expertise, do you believe the EPA 
violated the law? If confirmed, how would the Office of General 
Counsel ensure the USDA is compliant with the Anti-Lobbying Act 
restrictions?
    Mr. Prieto. Again, Mr. Chairman, thank you very much for 
that question. I can speak to the USDA. We understand the 
statutory requirements in these particular issues. Clearly, we 
have significant outreach to our communities. We do it in the 
way that fits and within the statutory requirements, and I can 
commit to you, sir, and to this committee, that we will 
continue to do everything that we do within the statutory 
requirements of those particular provisions.
    Chairman Roberts. Thank you, sir.
    Now, I have raised this issue because I was disappointed, 
although not entirely surprised, to learn of EPA's very 
questionable activities surrounding the manner by which they 
advanced the WOTUS proposed rule through the rulemaking, 
especially the public comment process. I am deeply concerned 
and troubled that the EPA and administration officials may have 
not only undermined the meaningful consultation and 
collaboration with state partners and stakeholders in the 
rulemaking process, but I am also concerned about their role in 
manipulating and influencing the outcome of the public comment 
period.
    Now, in March, Administrator McCarthy testified before 
Congress and said without any hesitation that over one million 
comments--one million--and 87.1 percent of those comments we 
have counted--I am quoting her--so far are supportive. Let me 
repeat. Eighty-seven-point-one percent of those plus one 
million are supportive of this rule.
    Well, given what has come to light in recent days, I find 
this statement to be completely disingenuous and automatically 
discredit EPA's objectivity through every facet of the 
rulemaking process to date. We all know that the EPA will issue 
the WOTUS rule any day now, probably tomorrow.
    This committee heard directly from farmers and ranchers, 
this committee. They came, they testified, from all regions of 
the country, ranchers, state agency officials, various 
industries in Kansas, all throughout the country, about the 
impacts of EPA's proposed WOTUS rule. It became the number one 
issue of concern throughout all of rural America with regards 
to regulatory overreach. This resounding message was 
communicated before our committee, and it was clear that this 
was the wrong approach and the wrong rule for agriculture, 
rural America, and small communities.
    When I and other members of this committee raised the 
concerns of our constituents with Administrator McCarthy, we 
were told that they should submit comments for the record and 
EPA would take them under consideration. Well, we now know that 
the EPA stacked the deck against them. Rather than listening to 
public comments from our agriculture constituents, it appears 
that EPA has orchestrated a political grassroots lobbying 
campaign with environmental groups to manipulate the process 
and disregard legitimate concerns from rural America.
    Now, regardless of our position on the rule--we have 
members of the committee who support the committee, I know 
that. We have those of us who think that we could certainly at 
least tweak it, or at least make it more fair, or simply back 
it off for a while. That is not the issue. I give everybody 
here the credit for their intent. The issue is having a fair 
comment period where producers' legitimate concerns are heard 
and protected, not drowned out by the EPA itself.
    So, Mr. Prieto, I raise this issue with you only to say, I 
encourage you--I encourage you--in your capacity as General 
Counsel to ensure that the USDA follows the law and not in the 
footsteps of the EPA, because this committee has the oversight 
responsibility and we will be watching. I know you will do that 
job.
    The Agriculture Committee has a very full plate this 
Congress with several pieces of legislation to complete before 
September 30. There is a long tradition in this committee of 
OGC being a partner in this task to ensure that we get the 
language right. Do I have your commitment to make your staff 
available to assist us in this work?
    Mr. Prieto. You do, Mr. Chairman.
    Chairman Roberts. There are other questions that I will 
submit for the record, and I recognize the distinguished 
Ranking Member.
    Senator Stabenow. Well, thank you very much, Mr. Chairman, 
and welcome again, and let me just indicate I think with the 
Clean Water Act revisions that the proof will be in the pudding 
and that we all want to make sure that all the traditional 
agricultural exemptions and forestry exemptions are in place so 
that, in fact, agriculture can continue to do what they need to 
do and also protect the waters of this country, which we all 
care deeply about, including and specifically our farmers and 
ranchers who count on this resource, and we are seeing the 
challenges across the country right now from lack of water. So, 
we are all in this and need to get it right.
    Mr. Prieto, you have a very impressive career in civil 
service and you received a number of awards throughout your 
tenure at the Department of Justice. You have now been at the 
USDA's Office of General Counsel for nearly a year. I wonder if 
you could speak a little bit more about your experience at the 
Department of Justice, specifically within the Environment and 
Natural Resources Division, how you think that experience 
helped prepare you to be General Counsel of the USDA.
    Mr. Prieto. Thank you, Senator, and I thank you also for 
the compliments relative to my career. I believe that my time 
as a federal prosecutor at the Department of Justice has, 
frankly, prepared me very well for the position at USDA. Many 
of the cases that I litigated, that I served upon, included a 
significant number of federal agencies who we were 
representing, both on the affirmative and on the defensive 
side. It has given me the experience to work across the 
government to ensure that consensus is reached, that decisions 
are reached, so that the United States could speak with a 
single voice. I think that experience in terms of working 
across the government will serve me well.
    Again, USDA has many partners and it is incredibly 
important, as both you and the Chairman have raised, in terms 
of the relationship that USDA has, the role that we play as 
different rules go forward, as different practices go forward. 
So, I believe that it has prepared me well to serve in that 
particular role at USDA.
    Senator Stabenow. Thank you.
    You are also in charge of managing several deputy and 
associate general counsels, 12 regional and field offices, I 
think over 250 people. Could you talk about how your previous 
experience has helped you be able to get to this point in terms 
of leading a very large staff and the challenges of moving 
forward as you work with us.
    Mr. Prieto. Thank you, Senator. I think one of the 
challenges that anyone faces coming into this position is 
working with career public servants. I think, based on my 
experience, I have a very good understanding of the challenges 
that federal attorneys face. I think that, in itself, has 
prepared me quite well to work with my now colleagues at USDA.
    I also think some of the cases that I worked on, and based 
on the complexity some of the largest that the United States 
has brought, allows me also well to understand the challenges 
that we face. We have a wonderful career staff and I am very 
proud to be part of that. I think the insights that I bring 
have allowed me to work very well with our career staff to 
continue to serve not only USDA, but Congress, as well.
    Senator Stabenow. Thank you.
    We have a lot of work still to implement the farm bill. We 
look forward to continuing to work with you on that. That is 
obviously incredibly important that we get that right. We put a 
lot on the USDA's plate and I think they are moving forward 
very well on all of it.
    But, there are new things, or old things that come back, 
and one of those is country of origin labeling, that is one of 
the most challenging issues, I think, now, given the decision 
that we have to deal with. I think, as we look at solutions--I 
have been focused on this and I know the Chairman has for the 
last couple of years, looking at how we can find the right 
balance for U.S. producers and meet our global obligations and 
so on.
    Will you commit to work with us as we develop a solution 
that can both pass the Senate, but also is responsible in terms 
of addressing the various needs of our producers and consumers?
    Mr. Prieto. Again, to echo the Secretary, we remain 
committed to working with Congress to address the particular 
issues that are raised by the recent decision and we will 
continue to do so.
    Senator Stabenow. Thank you, Mr. Chairman.
    Chairman Roberts. Well, thank you for that excellent 
question, Senator, and thank you for your response, sir. We 
have to fix this situation so we are WTO compliant. We just 
have to do it, but we have to do it the right way and we have 
to have a bill that will pass the Senate.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you 
very much for being here and your willingness to serve.
    This is such an important position, and I know that in the 
future, you are going to face some really difficult challenges, 
as has been brought up.
    One thing that I would really ask you to remember, your 
talk, your introduction was very eloquent and I enjoyed hearing 
about your family, but it is so important to remember that, 
being in this position, that you are going to represent real 
people, real ranchers, real farmers, the type of people that 
you were raised with and is still part of your family. Again, 
it is just so important to use the power of the office that you 
will have for good.
    I have been disappointed, as well, with the 
administration's approach with the waters of the United States. 
How will you ensure that the EPA takes into account concerns 
that farmers and ranchers have in their methodology?
    Mr. Prieto. Thank you for that question, Senator. I think 
we will continue to do so in the preparation of the rule. 
Again, USDA served in a consulting rule to ensure that the 
interest of the--agricultural interests were considered. It is 
something that we at OGC and the Department, again, take very, 
very seriously. We will continue to serve in that role in that 
particular matter to ensure that it is with clarity, but also 
to ensure that the stewardship of many of the rural community 
ranchers, farmers, as they relate to those issues are also 
reflected. I understand the incredible responsibility. I also 
understand who we represent and we will continue to serve in 
that capacity. I am committed to doing so.
    Senator Boozman. Well, again, thank you very much for your 
willingness to serve, and I yield back, Mr. Chairman.
    Chairman Roberts. Senator Klobuchar.
    I might tell my colleagues, the vote has started. We have 
about ten minutes left, but please.
    Senator Klobuchar. Okay. I guess I will be quick so we can 
get to other Senators, as well. So, thank you.
    Thank you very much, and I know that you have had a lot of 
experience, including in the Environmental and Natural 
Resources Division of the Justice Department, the EPA, and the 
Department of Health and Human Services. So, I know Senator 
Roberts raised this issue about the waters of the U.S. rule, 
and we have had two experiences now in the last year. I 
actually like the EPA Administrator very much. I think she is 
trying to do some good things and has been really good at 
reaching out.
    However, on both the waters of the U.S. rule and then the 
flood proposal on the biofuels that came out, from our 
perspective, a lot of the farmers in my state just feel like 
they have not had a lot of say over how this works and there 
have clearly been some, especially with the waters of the U.S., 
some--there has not been enough input in terms of from the 
beginning, before the rule came out, as there was with the 
biofuels rule, also, there was not input, from my perspective. 
How can you better coordinate, with your experience with the 
EPA, on issues that affect farmers and ranchers?
    Mr. Prieto. Again, thank you, Senator, and I understand the 
importance of my role to ensure that we are coordinating. I am 
committed, again, to continue doing what we are doing. If 
confirmed, I will continue that OGC serves in that role, that 
we are raising the issues of importance in any of the processes 
that we are involved in, and that is definitely one that we are 
involved in. We will continue to serve in that role to ensure 
that those interests are considered.
    Senator Klobuchar. Thank you very much.
    I have also been working hard on two other issues. One is 
trade with Cuba. I am leading the bill to lift the trade 
embargo. As you know, we have got a lot of exports going on 
under the humanitarian exemption. Minnesota alone is $20 
million. On the bill with me are Senators Enzi and Flake, Paul, 
Stabenow, Leahy, Durbin, and other Senators have been added 
this week. Does the U.S. discriminate against other trading 
partners like we do Cuba? How do you see the Agriculture 
Department working better in terms of trying to make sure that 
we use some of the trade promotion monies and other things to 
further this effort?
    Mr. Prieto. Senator, that is something that, again, USDA 
obviously has a significant international presence in terms of 
what we have done----
    Senator Klobuchar. They have been very--Secretary Vilsack 
has been incredibly supportive in terms of trying to get this 
done.
    Mr. Prieto. We will continue to do so if committed, and I 
continue to be committed to working with you on these 
particular issues. They are of incredible importance to USDA 
and we are committed to working with you, with your staff on 
these issues.
    Senator Klobuchar. Okay. Thank you.
    Last, just more to call your attention, because the USDA 
has helped me with this in the past, particularly Secretary 
Vilsack, we have too many wolves in Minnesota and we actually 
went through a process to de-list the wolves. It was 
successful. We got it done. Our state was managing them. Then 
not all the groups, not the Wildlife Federation, not a number 
of them, sort of were letting it be, but then two groups 
brought--maybe others, but two groups brought a suit, the 
Center for Biological Diversity and also the Humane Society, 
once again, on the de-listing, and now we are no longer able to 
manage the wolves. We have about double the number of wolves we 
are supposed to have in Minnesota.
    I believe in the Endangered Species Act, I truly do, but 
this has gone on again, and so I am just warning you that this 
issue will probably be coming across your desk, only because we 
are out of options here. Obviously, Interior is appealing the 
decision, which we appreciate, but this is--it just keeps 
going, and I wish these groups that do respect the Act would 
understand that at some point, it is not supposed to be used to 
keep species in the--under the auspices of the Act forever. It 
is supposed to be used to make sure we have enough of a 
species, and then at some point, they get out from under the 
Act. But, that is not how they are using the Act, given the 
numbers.
    The other thing you need to know is one of the reasons 
given in the court decisions was that we did not have a 
management plan for all of Minnesota. Well, that is because the 
wolves are not supposed to live in all of Minnesota. They are 
supposed to live in Northern Minnesota. They are not supposed 
to be at the Mall of America or the Mayo Clinic.
    So, as a lawyer, when you look at this, I hope you can 
examine this, as well, because it is important to farmers and 
ranchers. We have got a lot of, just in the last week, a number 
of pets that were eaten by these wolves. Some of them are sick 
and they are running around chasing snowmobiles. It sounds 
small, but we are concerned about it. While wolves do not 
necessarily prey on people at all, when they are sick and would 
naturally not still be around, they do. So, we have had someone 
bitten on the face and we are getting very concerned about it 
because our wolves are around cabins. They are not just out in 
ranches like they might be out in the western part of our 
country. Okay?
    Mr. Prieto. Thank you, Senator.
    Senator Klobuchar. Thank you.
    Mr. Prieto. Thank you very much for that information.
    Chairman Roberts. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    Senator Klobuchar, you may be surprised that we have a red 
wolf problem in North Carolina, so I understand some of the 
concerns.
    I am going to be very brief. First, welcome to your family 
and thank you for the very articulate opening statements.
    My question has more to do with--I completely agree with 
everything the Chairman said about the EPA rulemaking process 
on WOTUS. I think it is wrong on several levels. I spent Monday 
with a farmer down in North Carolina--by the way, we are the 
sweet potato capital of the world. But, repeatedly, they talk 
about regulations that maybe at one point in time made sense, 
but now they have just been layered and layered and layered. 
There is this ratchet effect with regulations that it seems 
like no agency ever really goes back and cleans them up, maybe 
nipping around the edges.
    So, what role do you think the Department can play in 
looking at not only the regulations you are responsible for, 
but the multiple regulatory agencies that come out to a farm? 
Frequently, multiple agencies are involved in pushing the same 
regulations, not unlike the regulatory landscape in the 
financial markets.
    What can we do, or what role do you think the Department 
can play to go back and say, is this rational? Is there a way 
to make it more efficient and less intrusive and still achieve 
the regulatory outcomes? We may disagree that some regulations 
may or may not be necessary, but we can always agree to 
evaluate how we can be doing a better job.
    Is there a role to be played by the USDA to help our 
farmers out and still get the regulations right?
    Mr. Prieto. Senator, thank you very much for that question. 
I believe it is, and it is one that we continue to play. As I 
indicated, we very strongly play a consulting role to ensure 
that the interest of USDA, the interest of the agricultural 
communities are reflected, and I am committed to continuing to 
play that role. It is a role that the Secretary plays and it is 
a role that we will continue to play to ensure that the 
interest of the communities that you have described are 
reflected, and I think that is what, hopefully, I bring in 
terms of working with the federal government, understanding 
that role and to do it as effectively as possible.
    Senator Tillis. Thank you. In the interest of time, I am 
just going to submit other questions. I look forward to 
supporting your confirmation.
    Mr. Chair, I would like to say that I stand proud here with 
you as the lone member left.
    [Laughter.]
    Chairman Roberts. Well, Marines are used to that.
    Mr. Prieto, thank you for your time and willingness to be 
considered, for your service at the Department as the General 
Counsel. We look forward to that.
    As you know, we are not voting on your nomination today, 
but I promise you we will work to schedule a business meeting 
as expeditiously--hopefully off the floor--as possible for a 
committee vote. To that end, I ask members to submit any 
additional questions for the record by 5:00 tomorrow, Friday, 
May 2.
    I just want to say one thing with regard to Senator 
Klobuchar's remark about farmers in her State concerned about 
not being heard on this waters of the U.S. situation. They are 
being heard. We had a hearing right here in this room. This 
place was packed with people, and we had representatives from 
all over the country expressing their concern about this rule.
    We heard them nine months ago when we were talking with 
nine Senators, a bipartisan group, with the Administrator of 
EPA, Gina McCarthy. I pointed out there were two lines in the 
legislation, ``Normal cropping operations are exempted,'' and 
then we went into 88 pages in the Federal Register where still 
people are trying to figure it out.
    Every farm organization, every farm group, every commodity 
group, everybody involved in agriculture, every small community 
sent in their commentary. So, yes, we are heard, but they did 
not listen. They stacked the deck, and they stacked the deck in 
a way that I think could have broken federal law. As you can 
tell, I am pretty upset about it.
    So, we are going to continue our oversight responsibility. 
I credit Senator Jim Inhofe for asking for some consideration 
with regards to an investigation by the GAO. We will be 
following that closely. He has the jurisdiction with regards to 
legislation, but we set the predicate, and I want everybody in 
this room to understand that farmers were heard. The fact that 
EPA stacked the deck against them, this is--it is not only 
disingenuous, it tears at the very basic commentary system that 
we have in this country were Congress--or some agency with an 
agenda passes a rule, and then we have a commentary period. Why 
even have a commentary period if we are not going to listen? 
Further observations, I will offer, if not.
    But, the committee stands adjourned.
    [Whereupon, at 10:33 a.m., the committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                              MAY 21, 2015



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              MAY 21, 2015



      
=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                         QUESTIONS AND ANSWERS

                              MAY 21, 2015



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                               [all]
                               
                               
</pre></body></html>
